SB

Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253

STATE OF NEW YORK
COUNTY OF NEW YORK

)

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 1/13/2021 deponent caused to be served 1 copy(s) of the within
Motion for Leave to Proceed in Forma Pauperis
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

Jeffrey B. Wall,
Acting Solicitor General
OFFICE OF THE U.S.
SOLICITOR GENERAL
950 Pennsylvania Avenue, NW
Washington, DC 20530
Phone: 202-514-2203

U.S. ATTORNEY’S OFFICE,
EASTERN DISTRICT OF NY
610 Federal Plaza
Central Islip, NY 11722
Phone: 631-715-7851

Sworn to me this
Wednesday, January 13, 2021
Antoine Victoria Robertson Coston
Notary Public. State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Josue Portillo v. USA
Docket/Case No:
Index:

Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253

STATE OF NEW YORK
COUNTY OF NEW YORK

)

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 1/13/2021 deponent caused to be served 1 copy(s) of the within
Redacted Petition for a Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

Jeffrey B. Wall,
Acting Solicitor General
OFFICE OF THE U.S.
SOLICITOR GENERAL
950 Pennsylvania Avenue, NW
Washington, DC 20530
Phone: 202-514-2203

U.S. ATTORNEY’S OFFICE,
EASTERN DISTRICT OF NY
610 Federal Plaza
Central Islip, NY 11722
Phone: 631-715-7851

Sworn to me this
Wednesday, January 13, 2021
Antoine Victoria Robertson Coston
Notary Public, State ofNew York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Josue Portillo v. USA
Docket/Case No:
Index:

